No. 19-____
IN THE

Supreme Court of the United States
————
BETH LEWIS MAZE,
Petitioner,

v.

KENTUCKY JUDICIAL CONDUCT COMMISSION,
Respondent.
————
On Petition for a Writ of Certiorari to the
Supreme Court of Kentucky
————
PETITION FOR A WRIT OF CERTIORARI
————

THEODORE H. LAVIT
224 North Spalding Avenue
P.O. Box 676
Lebanon, KY 40033
(270) 692-4471
tlavit@windstream.net

EDWARD E. DOVE
Counsel of Record
201 W. Short Street
Suite 300
Lexington, KY 40507
(859) 252-0020
eddove@windstream.net

Counsel for Petitioner
September 4, 2019

WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Petitioner, a Kentucky Circuit Judge, has been charged
by the Kentucky Judicial Conduct Commission in a
civil proceeding that could result in removal from her
elected judicial office. Petitioner also has been charged
in a state criminal indictment for the same underlying
conduct. Petitioner sought and was denied a stay of
the administrative proceedings in order to protect
her Fifth Amendment right to remain silent in the
criminal case. Did the denial of the stay in the civil
proceedings deprive Petitioner of her fundamental
Fifth Amendment right to remain silent in the state
criminal proceedings?

(i)

ii
PARTIES TO THE PROCEEDING
Petitioner, Beth Lewis Maze, was the movant in
lower courts. Respondent is the Kentucky Judicial
Conduct Commission.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDING ....................

ii

TABLE OF AUTHORITIES ................................

iv

REPORTED OPINION .......................................

1

BASIS OF JURISDICTION ................................

1

PROVISIONS OF LAW INVOLVED ..................

1

STATEMENT OF THE CASE ............................

1

I. Procedural Background ...............................

1

REASONS FOR ISSUANCE OF THE WRIT .....

3

CONCLUSION ....................................................

4

APPENDIX
APPENDIX A: Opinion of the Supreme
Court of Kentucky ........................................

1a

APPENDIX B: Order of the Judicial
Conduct Commission 11/19/18 .....................

35a

APPENDIX C: Order of the Kentucky
Supreme Court 11/30/18 ..............................

36a

APPENDIX D: Formal Charges I & II of
JCC and Answer ...........................................

38a

APPENDIX E: Formal Charges III & IV
and Answer ...................................................

45a

APPENDIX F: Indictment of 11/1/18..........

54a

APPENDIX G: Order Granting Stay of the
Supreme Court of Kentucky ........................

57a

(iii)

iv
TABLE OF AUTHORITIES
CASES

Page(s)

Newman v. United States,
No. 3:90-CV-7646, 1992 WL 115191
at *1 (N.D. Ohio Jan 2, 1992) (citing
In re Ivan F. Bowsky Sex. Litigation,
128 F.R.D. 47, 49 (S.D.N.Y. 1989))...........

3

CONSTITUTION
Fifth Amendment .........................................

1

REPORTED OPINION
The decision of the Supreme Court of Kentucky
in Beth Lewis Maze v. Kentucky Judicial Conduct
Commission, 2018-SC-000633-RR (Ky. 2019), is appended
to this petition.
BASIS OF JURISDICTION
The jurisdiction of this Court is invoked pursuant
to 28 U.S.C. § 1257(a). The decision of the Kentucky
Supreme Court was issued on June 13, 2019. This
petition is timely filed pursuant to Supreme Court
Rule 13.1.
PROVISIONS OF LAW INVOLVED
The Fifth Amendment of the United States
Constitution provides:
No person shall . . . be compelled in any
criminal case to be a witness against himself[.]
STATEMENT OF THE CASE
I. Procedural Background
Elected in 2000, Petitioner is the Chief Circuit Judge
for the 21st Judicial Circuit of Kentucky consisting of
Bath, Menifee, Montgomery and Rowan counties.
On the evening of September 18, 2017, the Bath
County jailer telephoned Petitioner from the hospital
in Mt. Sterling, Kentucky, seeking the issuance of
a drug test order which had been requested by both
the arresting officers and Petitioner’s ex-husband. The
jailer advised that all other judges in the circuit
had recused themselves with regard to any action
concerning Petitioner’s ex-husband.

2
Believing she was simply preserving evidence and to
comply with the jailer’s request, Petitioner located a
blank order form at her residence and completed it and
faxed it to the hospital. However, the form was
outdated and differed from the form currently in use.
In particular, the updated form contains a signature
block for parties described as “[d]istribution,” to
various parties. Appendix E 51a. In the old version of
the form this block was “seen by and order of entry
waived.”
As a result, Petitioner unknowingly signed an
outdated order form. On the lines she believed were
for distribution, Petitioner printed “Commonwealth
Att. & Bath Co. Attorney” and “Michael Campbell,”
the attorneys for the plaintiff and the defendant.
Petitioner did so believing that the order would then
be distributed to each of them. Petitioner issued
another drug test order after the jailer called a second
time. (Appendix E 51a, 52a, and 53a)
Petitioner self-reported to the Kentucky Judicial
Conduct Commission (JCC) that she had prepared
orders in a case involving her ex-husband. Petitioner
also mailed the originals to the JCC, which has constitutional oversight of the judiciary in Kentucky, as
neither order was honored; the hospital needed a
doctors order, not a court order.
On May 21, 2018, the JCC charged Petitioner with
two counts of misconduct for signing orders involving
her ex-husband (Appendix D 38a). The JCC also
charged Petitioner with two counts of misconduct for
allegedly forging the attorneys’ names to the two order
forms at issue. (Appendix E 45a)
On November 1, 2018, Petitioner was indicted by the
Bath County Grand Jury on two counts of forgery and

3
one count of tampering with public records for mailing
the original forms to the JCC. (Appendix F 54a)
Contrary to her Fifth Amendment right to remain
silent, the JCC now seeks to compel Petitioner to
proceed with a civil disciplinary hearing prior to her
criminal trial. At the same time, Petitioner is
scheduled for trial on November 12, 2019 in the
criminal case for the same alleged misconduct.
REASONS FOR ISSUANCE OF THE WRIT
In this case, Petitioner has an overlapping Fifth
Amendment right to remain silent in the civil administrative proceedings and in the state court criminal
case. In its opinion denying a stay in the disciplinary
matter, the Kentucky Supreme Court essentially left
Petitioner with two choices—(1) Waive her Fifth Amendment right in the civil proceeding to defend herself
against the misconduct allegations, which also would
constitute a waiver in the criminal case, or (2) invoke
her Fifth Amendment right in the civil case to protect
herself in the criminal matter, but preventing her from
defending against the misconduct allegations. The
first option also would require Petitioner to disclose
her defenses and present witness testimony in the
administrative proceeding that will be relevant to
prosecutors in the criminal case. This potential outcome
demonstrates the false choice created by the Kentucky
Supreme Court’s decision. Respondent’s interest in
resolving the civil proceedings cannot outweigh Petitioner’s fundamental right to remain silent regarding
issues material to a pending criminal case against her.
A stay should have been granted to protect Petitioner’s
constitutional rights. See Newman v. United States,
No 3:90-CV-7646, 1992 WL 115191, at *1 (N.D. Ohio
Jan. 10, 1992) (citing In re Ivan F. Bowsky Sex.
Litigation, 128 F.R.D. 47, 49 (S.D.N.Y. 1989))

4
CONCLUSION
This Court should grant certiorari to correct the
decision of the Kentucky Supreme Court to deny
Petitioner’s stay of the civil proceedings until the state
criminal case is resolved. Such a stay is necessary to
allow Petitioner to assert her fundamental constitutional right to remain silent.
WHEREFORE the writ of certiorari should issue.
Respectfully submitted,
THEODORE H. LAVIT
224 North Spalding Avenue
P.O. Box 676
Lebanon, KY 40033
(270) 692-4471
tlavit@windstream.net

EDWARD E. DOVE
Counsel of Record
201 W. Short Street
Suite 300
Lexington, KY 40507
(859) 252-0020
eddove@windstream.net

Counsel for Petitioner
September 4, 2019

APPENDIX

1a
APPENDIX A
RENDERED: JUNE 13, 2019
TO BE PUBLISHED
SUPREME COURT OF KENTUCKY
————
2018-SC-000633-RR
————
BETH LEWIS MAZE, CIRCUIT JUDGE,
Movant,
v.
KENTUCKY JUDICIAL CONDUCT COMMISSION,
Respondent.
————
OPINION AND ORDER
Acting through an attorney, Judge Beth Lewis
Maze1 sent a letter to the Judicial Conduct Commission (“JCC”) on November 12, 2017, in which she
reported her own conduct. Based upon these facts, the
JCC brought a five-count misconduct charge against
her. While those misconduct charges were pending a
final hearing before the JCC, a grand jury returned a
criminal indictment against Judge Maze on November
1, 2018. The grand jury charged Judge Maze with two
counts of second-degree forgery2 and one count of
tampering with public records.3

1

Beth Lewis Maze is Judge of the 21st Judicial Circuit of
Kentucky, Division No. 2.
2

Kentucky Revised Statutes (“KRS”) 516.030.

3

KRS 519.060.

2a
Two weeks after the return of the indictment, Judge
Maze filed three motions, in her JCC proceedings, and
the JCC denied her requested relief on all of them.
The JCC’s denial of these motions is the subject of this
appeal.
Before the JCC, Judge Maze first moved for a postponement of all further JCC proceedings until resolution
of the criminal charges. Second, Judge Maze moved to
postpone the December 3, 2018, JCC hearing, claiming
insufficient time to prepare for the hearing because
the JCC produced to her a voluminous amount of materials in discovery slightly less than a month before the
scheduled JCC hearing. Third, Judge Maze asked for
an informal conference with the JCC to address additional misconduct charges that were added after the
initial charge.
After the denial of all three motions, Judge Maze
filed in this Court a Kentucky Rules of Civil Procedure
(“CR”) 76.33 Motion for Intermediate Relief on November
28, 2018, asking us to stay the impending JCC hearing. And along with the CR 76.33 motion, Judge Maze
filed a Notice of Appeal, in which she asked us to review
the JCC’s denial of her three motions. We granted
Judge Maze’s CR 76.33 motion, staying all. JCC proceedings until we could address the merits of Judge
Maze’s appeal of the JCC’s denial of her motions.
We find no error on the part of the JCC in denying
Judge Maze’s motion for a stay, and because her other
challenges are either moot or procedurally infirm at
this time, we affirm her appeal, in part, and order her
appeal dismissed, in part.
I. ANALYSIS.
Section 121 of the Kentucky Constitution creates a
commission to retire for disability, suspend without

3a
pay, or remove for good cause members of the state’s
judiciary. And this section mandates that the “actions”
of the commission are subject to judicial review by this
Court.4 But more importantly, Section 121 gives this
Court the rulemaking power over the commission’s
proceedings. In exercise of this rulemaking power,
this Court has promulgated Kentucky Supreme Court
Rules (“SCR”) 4.000, et seq. SCR 4.010(a) designates
the name of the commission as the Kentucky Judicial
Conduct Commission.
SCR 4.290 outlines judicial review of JCC proceedings. SCR 4.290(2) provides, “A notice of appeal of the
Commission’s final order shall be filed with the Clerk
of the Supreme Court within 10 days after service
of notice of the order upon the judge.”5 Additionally,
SCR 4.290(5) provides, “The Court shall have power to
affirm, modify or set aside in whole or in part the order
of the Commission[.]”6 As such, SCR 4.290 contemplates that only after the final order of the JCC
resolving all issues does this Court exercise direct
appellate review over JCC proceedings.
The language of SCR 4.290(1), which provides that
the Kentucky Rules of Civil Procedure (“CR”) shall
apply to this Court’s appellate review of JCC orders to
the extent they are not inconsistent with SCR 4, further buttresses the point that we review only the final
orders of the JCC. CR 54.01 provides, “A final or
appealable judgment is a final order adjudicating all
the rights of all the parties in an action or proceed-

4

Ky. Const. § 121.

5

(emphasis added).

6

(emphasis added).

4a
ing[.]” This Court has long held that appeals are allowed
only from final judgments.”7
The rules governing this Court’s review of JCC
proceedings only allow us to review the propriety of
those proceedings upon submission of the JCC’s final
order resolving the proceedings.8 Here though, the
JCC proceedings are ongoing; nothing in Judge Maze’s
JCC proceedings has been finally adjudicated. And
the three JCC rulings at issue in this direct appeal—
denial of a stay, denial of a continuance, and denial of
an additional informal hearing—are all interlocutory
in nature and do not constitute immediately appealable final judgments.9
But the JCC only challenges the procedural ability
of this Court to address the propriety of Judge Maze’s
argument regarding the JCC’s denial of her motion for
an additional informal hearing. The JCC argues that
Judge Maze’s challenge to the JCC’s denial of her
7

Cavalier Homes of Alabama v. Coleman, 181 S.W.3d 558, 559
(Ky. 2005) (citing CR 54.01; National Gypsum Company v. Corns,
736 S.W.2d 325 (Ky. 1987)).
8

Indeed, a review of our case law reveals that we have only
entertained appeals of JCC proceedings after the JCC has entered
its final order disposing of the entire matter. See e.g., Gormley u.
Judicial Conduct Comm’n, 332 S.W.3d 717, 720 (Ky. 2010); Aired
v. Corn., Judicial Conduct Comm’n, 395 S.W.3d 417, 423 (Ky.
2012); Kentucky Judicial Conduct Comm’n v. Woods, 25 S.W.3d
470, 471 (Ky. 2000).
9

See e.g., John Bourdeau, et al., American Jurisprudence,
4 Am. Jur. 2d Appellate Review § 146 (Feb. 2019 update) (“[A]n
order granting or refusing a continuance, postponement, or adjournment of the trial or other proceeding involved in a state civil case
is merely interlocutory in nature and nonappealable.”) (internal
citations omitted); Warper Mfg. Co. v. Ashland Oil, Inc., 606 F.
Supp. 866, 867-68 (N.D. Ohio 1985) (denial of plaintiff’s motion to
have hearing not final appealable order).

5a
motion for an informal hearing is an impermissible
issue for interlocutory review. The JCC is correct in
this assertion, so we decline to review the propriety of
the JCC’s denial of Judge Maze’s motion for an,
informal hearing.
Additionally, the JCC argues that this Court’s grant
of Judge Maze’s CR 76.33 Motion for Intermediate
Relief, which postponed the hearing scheduled for
December 3, 2018, renders moot her challenge of the
propriety of the JCC’s denial of her motion to continue
the December 3, 2018 hearing. The JCC is also correct
in this assertion—this Court’s granting of Judge Maze’s
CR 76.33 motion did, in fact, cancel the December 3,
2018 hearing.10 So all that is left for our review is
whether the JCC correctly denied Maze’s motion for a
stay.11
“The civil and regulatory laws of [government]
frequently overlap with the criminal laws, creating the
possibility of parallel civil and criminal proceedings,
either successive or simultaneous.”12 In this case,
Judge Maze’s JCC proceedings and her criminal prose10

“A ‘moot case’ is one which seeks to get a judgment . . . upon
some matter which, when rendered, for any reason, cannot have
any practical legal effect upon a then existing controversy.” Morgan
v. Getter, 441 S.W.3d 94, 98-99 (Ky. 2014) (quoting Benton v. Clay,
233 S.W. 1041, 1042 (Ky. 1921)) (emphasis in original).
11

Although we have concerns about the procedural validity of
Judge Maze’s appeal of this interlocutory order, we will nonetheless address the merits of her argument because no procedural
challenge was made by the JCC on this point.
12

SEC v. Dresser Industries, Inc., 628 F.2d 1368, 1374
(D.C. Cir. 1980) (internal citations omitted); see also White Collar
Crime, 1 White Collar Crime § 7:1, Simultaneous or successive
civil and criminal proceedings (July 2018 update) (internal citations omitted).

6a
cution are pending at the same time. These parallel
proceedings appear to involve the same conduct on the
part of Judge Maze. Judge Maze sought by motion to
halt the JCC proceedings until her criminal prosecution concludes, but the JCC denied the motion.
“In the absence of substantial prejudice to the rights
of the parties involved, such parallel proceedings are
unobjectionable under our jurisprudence.”13 While “[t]he
Constitution . . . does not ordinarily require a stay of
civil proceedings pending the outcome of criminal proceedings[,] [n]evertheless, a court may decide in its
discretion to stay civil proceedings, postpone civil discovery, or impose protective orders and conditions ‘when
the interests of justice seem . . . to require such action,
sometimes at the request of the prosecution, . . . sometimes at the request of the defense[.]”14 “The Court
must make such determinations in the light of the particular circumstances of the case.”15
A secondary source describes the benefits and drawbacks of parallel proceedings:
Parallel proceedings benefit the government
in several ways. . . . These proceedings allow
civil and criminal agencies to share information. Furthermore, the regulatory agency
can use the criminal conviction of the defendant to dispose of the civil action.
Parallel proceedings can also benefit a defendant. The defendant may utilize a favorable
outcome in the civil action to avoid criminal
13

Dresser, 628 F.2d at 1374.

14

Dresser, 628 F.2d at 1374 (quoting United States v. Kordel,
397 U.S. 1, 12 (1970)).
15

Dresser, 628 F.2d at 1374.

7a
charges or to dismiss the criminal case. The
defendant can use the liberal discovery rules
of civil procedure to obtain information about
the criminal case. However, parallel proceedings also pose problems for a defendant, such
as invocation of his Fifth Amendment right
against self-incrimination, the financial strain
of defending two suits, and the use of evidence
from the civil case in the criminal case.16
The D.C. Circuit Court of Appeals in Dresser offered
a compelling analysis for when a court should defer a
noncriminal proceeding occurring simultaneously with
a defendant’s criminal proceeding:
Other than where there is specific evidence of
agency bad faith or malicious governmental
tactics, the strongest case for deferring civil
proceedings until after completion of criminal
proceedings is where a party under indictment
for a serious offense is required to defend a
civil or administrative action involving the
same matter. The noncriminal proceeding, if
not deferred, might undermine the party’s
Fifth Amendment privilege against selfincrimination, expand rights of criminal
discovery beyond the limits of [the Rules of
Criminal Procedure], expose the basis of the
defense to the prosecution in advance of
criminal trial, or otherwise prejudice the case.
If delay of the noncriminal proceeding would
not seriously injure the public interest, a
court may be justified in deferring it.. . In
some . . . cases, however, the courts may
adequately protect the government and the
16

White Collar Crime, supra note 12 (citations omitted).

8a
private party by merely deferring civil discovery or entering an appropriate protective order.17
“The burden is on the party seeking the stay to show
‘pressing need for delay’ and that neither the other
party nor the public will suffer harm from entry of the
order.’”18 If a stay is granted, “[t]he stay must only be
entered for a certain period of time and must not ‘place
[the) case in limbo for years.’”19
“While there is no precise test . . . for determining
when a stay is appropriate, . . . courts commonly
consider factors such as: (1) the extent to which the
issues in the criminal case overlap with those presented in the civil case; (2) the status of the case,
including whether the defendants have been indicted;
(3) the private interests of the plaintiffs in proceeding
expeditiously weighed against the prejudice to plaintiffs caused by the delay; (4) the private interests of
and burden on the defendants; (5) the interests of the
courts; and (6) the public interest.”20 “Moreover, the
public interest in effective criminal prosecution generally outweighs any existing civil interests.”21 “In
addition to those factors, . . . courts ‘should consider
“the extent to which the defendant’s fifth amendment

17

Dresser, 628 F.2d at 1376 (citations omitted).

18

SEC v. Abdallah, 313 F.R.D. 59, 64 (N.D. Ohio 2016)
(quoting F.T.C. v. E.M.A. Nationwide, Inc., 767 F.3d 611, 627-28
(6th Cir. 2014); Ohio Envtl. Council v. US. Dist. Ct., S. Dist. of
Ohio, E. Div., 565 F.2d 393, 396 (6th Cir. 1977)).
19

Abdallah, 313 F.R.D. at 64 (quoting Ohio Envtl. Council, 565
F.2d at 396).
20

Abdallah, 313 F.R.D. at 64.

21

Id.

9a
rights are implicated.” “The most important factor is
the balance of the hardships, but ‘[t]he . . court must
also consider whether granting the stay will further
the interest in economical use of judicial time and
resources. ‘“23
22

This Court has recently addressed the issue of
parallel proceedings and adopted a strikingly similar
test for determining whether civil proceedings should
be stayed pending resolution of concurrent criminal
proceedings.24 In Lehmann, the defendant was alleged
to have sexually abused young children.25 About a
month after the defendant was criminally indicted, the
alleged victims filed .a civil suit against the defendant.26 In determining whether the civil proceedings
should be stayed pending resolution of the criminal
proceedings, this Court discussed the issue of parallel
proceedings and how best to address it, using the
following factors as “strong guidance: (1) the extent
to which the evidentiary material in the civil and
criminal cases overlap; (2) the status of the criminal
proceeding; (3) the interests of any parties in staying
the civil proceeding; (4) the prejudice to any parties
22

E.M.A. Nationwide, 767 F.3d at 627 (quoting Keating v.
Office of Thrift Supervision., 45 F.3d 322, 324 (9th Cir. 1995);
Fed. Say. & Loan Ins. Corp. v. Molinaro, 889 F.2d 899, 902 (9th
Cir. 1989)).
23

E.M.A. Nationwide, 767 F.3d at 627 (internal citations
omitted).
24

Lehmann v. Gibson, 482 S.W.3d 375 (Ky. 2016). One of the
dissents suggests that we rely on Lehmann to support our holding. To the contrary, we only cite Lehmann for its helpful
articulation of the rule regarding the staying of a civil proceeding
occurring simultaneously with a criminal proceeding.
25

Id. at 379.

26

Id.

10a
from staying the civil proceeding; [(5)] the interests of
persons that are not parties to the litigation; [(6)] court
convenience; and [(7)] the public interest in the
pending civil and criminal actions.”27
Although we deal here with parallel JCC and
criminal prosecution whereas Lehmann dealt with
parallel civil and criminal prosecution, the distinction
is immaterial for applying the Lehmann factors as a
helpful guide in determining whether Judge Maze’s
JCC proceedings should be deferred until resolution of
her criminal prosecution as she has requested. In view
of the important constitutional function assigned to
the JCC of ensuring public trust and confidence in the
integrity of the state’s court system, we additionally
note that the JCC’s process demands a high degree of
deference.
We recognize from the outset that the burden is upon
Judge Maze to prove that her circumstances require
that the JCC proceedings against her be deferred
during her criminal prosecution. Unquestionably, the
facts underlying the criminal prosecution appear to
overlap with the facts underlying the misconduct
charges against her in the JCC proceedings. So far in
the criminal prosecution, Judge Maze has been indicted,
arraigned on all charges, and pleaded not guilty. A
pretrial conference is now set for September 17, 2019,
and a trial date for November 12, 2019.
The JCC is the prosecuting party in the case before
us. The JCC is the constitutionally created body solely
responsible under state law for “the discipline, retirement or removal of justices of the Supreme Court
and judges of the Court of Appeals, circuit court and
district court under section 121 of the Constitution of
27

Id. at 384 (citations omitted).

11a
Kentucky[.]” “The purpose of Section 121 of our
constitution is the regulation of the conduct of those
persons charged with the administration of justice.”29
“The aim of [JCC] proceedings . . . is to improve the
quality of justice administered within the Commonwealth
by examining specific complaints of judicial misconduct, determining their relation to a judge’s fitness for
office and correcting any deficiencies found by taking
the least severe action necessary to remedy the
situation “30
28

As of now, Judge Maze has been on paid suspension
from her duties as circuit judge since October 2, 2018.
The JCC’s interests in proceeding without impediment include: (1) maintaining the integrity of the
state’s judicial system by the faithful discharge of its
constitutional mandate to regulate the conduct of persons responsible for the administration of justice in
this Commonwealth; and (2) disposing expeditiously of
all pending matters before the JCC within the time
constraints imposed by SCR 4,000, et seq. The JCC’s
interests correspond with the public’s interest in the
prompt resolution of the misconduct charges against
Judge Maze. The public’s interest further demands:
(1) minimizing disruption of routine court business to
the citizens of the 21st Judicial Circuit and the Commonwealth; (2) reducing the additional expenditure of
state funds for special judges deployed to the 21st
Judicial Circuit to continue the work of the court while
Judge Maze remains suspended; and (3) reducing
length of time Judge Maze receives a full judicial
28

Supreme Court Rule (“SCR”) 4.000.

29

Nicholson v. Judicial Ret, & Removal Comm’n, 562 S.W.2d
306, 308 (Ky. 1978).
30

Id.

12a
salary and benefits while incapable of performing any
judicial duties.
Judge Maze argues that she will suffer increased
difficulties because of the parallel criminal charges
and disciplinary charges: (1) the quandary of asserting
her Fifth Amendment right against self-incrimination
and defending herself fully in both proceedings; (2) the
financial strain of defending two suits; and (3) the
overlap of evidence from the disciplinary proceeding
allowing its use in the criminal case and vice versa.
These difficulties are no greater for Judge Maze than
for any judge confronting parallel disciplinary and
criminal charges. And any financial burden on Judge
Maze does not appear to increase if the JCC proceedings proceed without further delay.
It is difficult to ascribe great weight to Judge Maze’s
Fifth-Amendment and overlapping-evidence arguments
considering the numerous voluntary and arguably incriminating statements she made in two self-reporting
letters to the JCC and the arguably incriminating
statements she made in a TV interview in August
2018. More importantly, we fail to see how Judge
Maze’s Fifth Amendment rights are even impinged
upon in this case.
“The right against self-incrimination provides two
types of protection in criminal proceedings: (1) a
defendant cannot be compelled to testify, and (2) the
factfinder cannot draw adverse inferences by the
defendant’s refusal to testify.”31 The JCC has not
compelled Judge Maze to provide testimony in her
defense that gives rise to statements that could be
used against her, and even if it did, the trial court in
31

Barker, 379 S.W.3d at 124 (citing Griffith v. California, 380
U.S. 609 (1965)).

13a
her ‘criminal proceeding could prevent any such
compelled testimony from being used against her. Nor
will the trial court in her criminal proceeding allow
Judge’s Maze’s silence in her JCC proceedings to be
used against her.
Understandably, Judge Maze wants to be able to
defend herself in her JCC proceedings and prevent
those statements from being used against her in any
way in her criminal proceedings. “But the Constitution
does not forbid ‘every government-imposed choice in
the criminal process that has the effect of discouraging
the exercise of constitutional rights.”‘32 “It is well
settled that the government need not make the
exercise of the Fifth Amendment privilege cost free.”33
“Although a defendant may have a right, even of
constitutional dimensions, to follow whichever course
[s]he chooses, the Constitution does not by that token
always forbid requiring h[er] to choose.”34 “It does
no violence to the privilege that a person’s choice
to testify in h[er] own behalf may open the door to
otherwise inadmissible evidence which is damaging to
h[er] case.”35
Judge Maze remains free to assert her Fifth Amendment right in both her JCC and criminal proceedings.

32

Jenkins v. Anderson, 447 U.S. 231, 236 (1980) (quoting
Chaffin v. Stynchcombe, 412 U.S. 17, 30 (1973)).
33

McKune v. Lilfe, 536 U.S. 24, 41 (2002) (Kennedy, J.,
dissenting) (citing Jenkins, 447 U.S. at 238; Williams v. Florida,
399 U.S. 78, 84-85 (1970)).
34

McGautha v. California, 402 U.S. 183, 213 (1971) (vacated
on other grounds by Crampton v. Ohio, 408 U.S. 941 (1972)).
35

Id. (citing Spencer v. Texas, 385 U.S. 554, 561 n.7 (1967);
Michelson v. United States, 335 U.S. 469 (1948)).

14a
Our decision today should not be taken to preclude her
from doing so.
One of the dissents also suggests, With the public
fully protected, the JCC cannot constitutionally justify
not awaiting the outcome of the criminal proceedings.”
If the JCC suspended Judge Maze without pay, then
Justice Lambert’s position would be strengthened. But
with this statement, the dissent ignores the fact that
the longer the JCC proceedings are stayed, the more
taxpayer dollars will be paid to a non-working judge
and the temporary judges who must fill her role.
One of the dissents additionally relies on this
Court’s decision in Cornett v. Judicial Ret. & Removal
Cornm’n36 to support its argument that a stay on
Judge Maze’s JCC proceedings is warranted. But this
Court’s disposition in that case is the exact opposite
disposition that the dissent advocates for: “The order
of the Commission is reversed, and the cause remanded
to the Commission so that it can either await the
outcome of the federal appellate process or conduct an
independent hearing and make its own findings of
culpability and enter an appropriate order based on
them.”37 In other words, faced with this exact situation
in Cornett, this Court allowed the JCC to proceed with
its investigation and disposition.
In sum, the balance of equities in this case favors
allowing the JCC to move ahead with its disciplinary
proceedings. The overarching public interest in an
expedited resolution of disciplinary proceedings against
a sitting judge furthers the goal of maintaining the
public’s trust and confidence in the judiciary while, at
36

625 S.W.2d 564 (Ky. 1981).

37

Id. at 569 (emphasis added).

15a
the same time, minimizing expense and inconvenience
to the public. These interests outweigh the burden of
parallel proceedings suffered by Judge Maze. Upon
full review of the record, we hold that the JCC did not
err in denying Maze’s motion for a stay.
Accordingly, the Court ORDERS:
1. The JCC’s denial of Judge Maze’s Motion to Stay
is AFFIRMED.
2. Judge Maze’s challenge to the JCC’s denial of
Judge Maze’s Motion for a Continuance is DISMISSED
as MOOT.
3. Judge Maze’s challenge to the JCC’s denial of
Judge Maze’s Motion for an Informal Hearing is
DISMISSED.
All sitting. Minton, C.J.; Buckingham, Hughes, and
VanMeter, JJ., concur. Keller, J. dissents by separate
opinion which Lambert and Wright, JJ. join. Lambert,
J., dissents by separate opinion, which Keller and Wright,
JJ., join. Wright, J., dissents by separate opinion
which Keller and Lambert, JJ., join.

16a
KELLER, J., DISSENTING: I strongly agree with
Justice Wright that this matter is procedurally barred;
however, in light of the majority’s analysis on the the
merits of this appeal, I feel obligated to address the
merits and, specifically, the application of the factors
in Lehmann v. Gibson, 482 S.W.3d 375 (Ky. 2016).
I agree that the Lehmann factors provide helpful
guidance on the issue at hand, namely, whether Judge
Maze’s JCC proceedings should be stayed pending
resolution of her criminal prosecution.38 I disagree,
however, on the majority’s application of those factors
to the facts of this case.
The first factor noted in Lehmann is “the extent to
which the evidentiary material in the civil and criminal cases overlap.” Lehmann, 482 S.W.3d at 384 (quoting
State v. Deal, 740 N.W.2d 755, 765 (Minn. 2007)).
Though Lehmann does not discuss this factor in detail,
one of the federal eases it relies on, Maloney v. Gordon,
328 F. Supp. 2d 508 (D. Del. 2004) provides some
insight. That Court noted that “pie similarity of the
issues underlying the civil and criminal actions is
considered the most important threshold issue in
determining whether or not to grant a stay.” Id. at 511
(citation omitted). The Maloney Court then explained,
“The strongest case for deferring civil proceedings
until after completion of criminal proceedings is where
a party under indictment for a serious offense is
required to defend a civil action involving the same
matter.” Id. (citation omitted).

38

I understand that Lehmann and many of the cases it cites
deal specifically with a stay of discovery in a civil proceeding,
while this case involves the stay of the entire JCC proceeding;
however, I agree with the majority that the factors it outlines are
highly relevant and worthy of consideration.

17a
In this case, the majority notes, “Unquestionably,
the facts underlying the criminal prosecution appear
to overlap with the facts underlying the misconduct
charges against her in the JCC proceedings.” Given
the factual overlap in the two matters, the evidence
will undoubtedly overlap, as well. As Maloney points
out, these circumstances weigh heavily in favor of
staying the JCC proceeding until the criminal matter
has been resolved.
Lehmann next directs us to consider the status of
the criminal proceeding. This factor should not be
overlooked, as the status of the criminal case “can have
a substantial effect on the balancing of the equities.”
Id. at 512 (citation omitted). In fact, Maloney noted
that, “[i]f criminal indictments are returned against
the civil defendants, then a court should strongly
consider staying the civil proceedings until the related
criminal proceedings are resolved.” Id. (citations omitted). This is true because “[c]ivil proceedings, if not
deferred, can undermine a defendant’s rights, including
the privilege against self-incrimination under the
Fifth Amendment of the United States Constitution.”
Id. (citation omitted).
Here, not only have criminal indictments been
returned against Judge Maze, but her criminal trial
has been scheduled for November of this year. A stay
would therefore delay the JCC proceeding for only a
few months. The brevity of this delay weighs in favor
of entering the stay.
The third Lehmann factor, which is discussed in
detail by the majority, is “the interests of the parties
in staying the civil proceeding.” Lehmann, 482 S.W.3d
at 384 (quoting Deal, 740 N.W.2d at 765). I strongly
agree that the JCC has an interest in maintaining
the integrity of our judicial system by regulating the

18a
conduct of our judiciary, and I agree that the JCC
has an interest in efficiently resolving those matters.
However, keeping in mind the JCC’s priorities, the
Commission functions best when presented all relevant facts and arguments. Though we cannot predict
if and when Judge Maze will invoke her Fifth Amendment right, the failure to stay the JCC proceeding
necessarily means that she may soon be called to
testify. If she does invoke her Fifth Amendment right
to remain silent, the JCC will not have the benefit of
considering Judge Maze’s entire defense. Thus, the
JCC’s interest in regulating the conduct of the bench—
not only efficiently but effectively—weighs in favor of
a stay.
More importantly, the JCC’s interests in resolving
this matter do not outweigh Judge Maze’s interest in
asserting her fundamental constitutional right against
self-incrimination. This Fifth Amendment right is so
fundamental that it was enshrined in our nation’s Bill
of Rights and in our Commonwealth’s Constitution. It
is a constitutionally guaranteed right and, undoubtedly, it should be afforded great weight. Given the
importance of this interest, I cannot find that the
JCC’s interests in an expeditious proceeding outweigh
this fundamental right. Even without considering the
other interests identified by the majority (financial
strain and overlapping of evidence), this interest alone
is so strong that it is not outweighed by JCC’s interests
in a speedy administrative proceeding.
This analysis is not altered by Judge Maze’s voluntary self-reporting letters or her television interview.
The majority finds it “difficult to ascribe great weight”
to Judge Maze’s Fifth Amendment and overlappingevidence arguments due to her earlier decision to
make these statements. Essentially, then, the majority

19a
finds that Judge Maze’s Fifth Amendment right
against self-incrimination is weakened by her decision
to self-report and be interviewed. I disagree. The
statements at issue do not provide specific details of
the alleged criminal charges of forgery and tampering
with public records, nor do they contain admissions
of guilt. Simply put, these are not self-incriminating
statements. While they might provide a basis for
impeachment during the JCC proceedings or at trial,
they do not provide a basis for denying Judge Maze her
fundamental right against self-incrimination.
Lehmann also directs us to consider any prejudice to
the parties that may result from a stay. As I noted
above, a stay would delay the JCC proceeding only
until the resolution of the criminal trial, which is
scheduled for November 12, 2019. There is no evidence
that this short delay will lead to the loss of evidence or
witnesses or will otherwise prejudice the JCC in any
way. Judge Maze, on the other hand, will be greatly
prejudiced by the absence of a stay because she will be
forced to either invoke her Fifth Amendment right,
thereby weakening her ability to tell her side of the
story in her defense, or waive her Fifth Amendment
right, in which case she risks making incriminating
statements that can later be used against her at her
criminal trial. As Maloney explained, competing civil
and criminal proceedings force upon. a defendant the
difficult choice between asserting his or her right
against self-incrimination, thereby inviting prejudice
in the civil case, or waiving those rights, thereby
courting liability in the criminal case.” 328 F. Supp. 2d
at 513 (citation omitted). This is precisely the dilemma
Judge Maze will face in the absence of a stay.
The fifth factor to consider is the interests of nonparties, which, in this particular case, overlaps with the

20a
final Lehmann factor, the public interest. Again,
Maloney provides a persuasive explanation of these
factors, particularly in cases involving the misconduct
of public officials. That Court noted that “[t]he public
has a substantial interest in the integrity or lack of
integrity of those who serve them in public office.’” 328
F. Supp. 2d at 513 (quoting United States v. Smith, 776
F.2d 1104, 1114 (3d Cir. 1985)). It clarified, however,
that “[t]he public’s interest in the integrity of the
criminal case is entitled to precedence over the civil
litigant.” Id. (quoting Javier H. v. Garcia-Botello, 218
F.R.D. 72, 75 (W.D.N.Y. 2003)). In fact, in that case, a
stay of the civil proceeding benefited the public by
allowing the criminal prosecution of the Defendants,
who are public officials, to proceed unimpeded and
unobstructed by any concerns that may arise in discovery in the civil case.” “Furthermore,” the Maloney
Court explained, “while the public has a strong interest
in this case, the related criminal proceeding serves to
advance many of those same interests, especially given
the factual overlap between the cases.” Id. at 513-14.
In the present case, the majority notes that the
public interests in this case are both pragmatic and
financial. Specifically, the public has an interest in
seeing that routine court business is not disrupted, as
well as ensuring that taxpayer dollars are not unnecessarily expended on Judge Maze’s salary and the
special judges hired to stand in her place during her
suspension. I acknowledge that Judge Maze’s suspension with pay imposes a hardship on the taxpayers
overall and citizens of her circuit; however, the interest
in protecting taxpayer dollars, while strong, does not
outweigh the fundamental constitutional right against
self-incrimination. This proposition is especially applicable here, where avenues exist to allow for Judge
Maze’s suspension without pay.

21a
Lastly, I turn to the remaining Lehmann factor:
court convenience. Essentially, this factor requires us
to consider judicial economy and, more specifically,
whether a stay will unfairly burden either the JCC or
the trial court. Federal courts have found this factor to
be “deserving of substantial weight.” Microfinancial,
Inc. v. Premier Holidays Intl, Inc., 385 F.3d 72, 79 (1st
Cir. 2004). Here, Judge Maze does not ask for an indefinite stay of the JCC proceedings; she asks that it be
stayed only until the criminal matter has resolved.
That trial is scheduled for November of this year.
Thus, while the JCC may have a heavy case load, a
stay will delay this single proceeding by only a few
months. Accordingly, I cannot find that the requested
stay would overburden the JCC, nor can I see how it
would inconvenience the trial court. This factor
therefore weighs in favor of a stay.
Having carefully considered each of the Lehmann
factors, l cannot agree with the majority’s decision.
These factors weigh in favor of a stay, and none more
so than Judge Maze’s interest in asserting a fundamental constitutional right. I have written separately
not only to emphasize that factor, but because this
issue reaches well beyond the parameters of this particular case. The Fifth Amendment belongs to all
persons found within the United States of America
and the Commonwealth of Kentucky. That right should
not and cannot be diminished for judges or any other
person that finds themselves under similar scrutiny as
Judge Maze. Therefore, I dissent.
Lambert and Wright, JJ., join.
LAMBERT, J., DISSENTING: Although I join
Justice Wright’s dissent regarding the necessity to file
a writ to invoke our jurisdiction to hear this case,
because the Majority has chosen to address the merits,

22a
I feel compelled to address them as well and respectfully dissent. I would hold that the Fifth Amendment
protections afforded Judge Maze in her parallel
criminal proceeding would stay the Judicial Conduct
Commission (JCC) proceedings pending the outcome
of her criminal charges, which are also part of the JCC
complaint. Because of her fundamental constitutional
rights against self-incrimination in her criminal trial,
the procedures of the JCC must face a strict scrutiny
test under Carey v. Wolnitzek.39 and Republican Party
of Minnesota v. White.40 Because the public and the
judiciary are fully protected by the temporary
measures taken by the JCC and the Chief Justice,
there is no compelling state interest, thus the stay
pending her criminal case should be granted.
I am persuaded by the analysis of Cornett v. Judicial
Ret. and Removal Comm’n.41 In Cornett, District Judge
Cornett had been convicted in the United States
District Court for the Eastern District of Kentucky
of two felony offenses. Id. Judge Cornett timely filed
an appeal to the United States Court of Appeals for
the Sixth Circuit. Id. After Judge Cornett had been
indicted and prior to his conviction, the Chief Justice
signed an order appointing a special presiding judge
in the place and stead of Judge Cornett.42 Id. at 565.
Meanwhile, the JCC commenced an investigation under

39

614 F.3d 189 (2010).

40

536 U.S. 765 (2002).

41

625 S.W.2d 564 (Ky. 1982).

42

The Majority states that Judge Maze is “faced with this exact
situation in Cornett”. However, that is not the case. Judge Cornett,
who had also been suspended WITH pay pending his criminal
case, had already been convicted of his charges, before the JCC
attempted to permanently remove him from office.

23a
SCR 4.170 based on his indictment. Id. Proper notice
of that investigation and an opportunity for Judge
Cornett to be informally heard was given prior to his
criminal trial. Id. Judge Cornett did not appear at the
informal conference. Id. No further action was taken
by the JCC until after he was convicted. Id. The JCC
then scheduled another opportunity for Judge Cornett
to appear informally with counsel, but the Judge did
not appear. Id. On the scheduled date, the JCC
entered an order suspending Judge Cornett based on
his conviction in the United States District Court on
two counts of conspiracy and bribery. Id. at 565-66. A
formal hearing was scheduled thereafter. Id. at 566.
43

Judge Cornett attended that hearing in person without counsel and implored the JCC to defer a decision
on the charges made against him until after the criminal proceedings in federal court had been fully and
completely litigated. Id. The JCC refused to do so and
issued an order removing him from office. Id. Judge
Cornett appealed to the Kentucky Supreme Court. Id.
Citing Hazelrigg v. Douglass44—where three members of the Fiscal Court of Montgomery County,
Kentucky were convicted of malfeasance in office and
fined, then their offices forfeited and declared vacant—
the Cornett court discussed the status of a public
official who had been found guilty of a serious offense:
It is suggested that when a public official has
been indicted and found guilty of a grave
offense, and judgment has been pronounced
depriving him of the office in the conduct of
which he committed the malfeasance, he ought
43

Kentucky Supreme Court Rule.

44

104 S.W. 755 (Ky. 1907).

24a
not thereafter to be allowed by suspending
the judgment to discharge the duties of the
office during an appeal; thereby defeating the
course of the law that took from him the office
he had disgraced. A sufficient answer to this
is that, in the administration of justice, under
our procedure, no judgment of an inferior
tribunal can be deemed to finally adjudge the
rights of the parties when the person against
whom it is entered prosecutes within the time
and in the manner allowed by law an appeal
to a court having jurisdiction to revise it.
Neither public policy nor the ends of justice
would be promoted by denying to a public
official the right to test the validity of a
judgment against him; and it is difficult to
understand upon what principle it can be
maintained that such officer may appeal from
so much of the judgment as imposes a trifling
fine, fully protecting his rights by the execution of a bond, and yet be denied the more
important right to save his office until the
judgment of the lower court can be reviewed.
We further said:
Again, it would be giving to the convicted
officer very inadequate relief to say that lie
might appeal from the judgment vacating his
office, and yet be deprived of the office by the
judgment of the inferior court, although that
judgment might be reversed and entirely
set aside by the judgment of the appellate
court . . . .
Cornett, 625 S.W.2d at 567. This Court went on to
reason:

25a
In the instant proceeding, Judge Cornett has
implored the Commission to await the final
outcome of the criminal proceedings against
him in the federal courts. Would granting
Judge Cornett’s request in any way interfere
with the best interest of justice to be served?
Judge Cornett has been suspended from the
practice of law as an attorney. He cannot
therefore practice law. On January 10, 1980,
the Chief Justice of this court entered an
order authorizing the regular judge of the
Harlan Circuit Court assigned temporarily as
special presiding judge of the District Court
for the 26th Judicial District, with full and
exclusive authority and responsibility to conduct all proceedings now and hereafter pending
in that court. Judge Cornett was ordered to
release to the said circuit judge all of the
records and physical, facilities of the district
court. Consequently, for all intent and purposes Judge Cornett cannot sit as the District
Judge for the 26th Judicial District. Not being
able to practice law or to hold court, it can
hardly be in the best interest of justice that
Judge Cornett’s request that the Commission
withhold the entry of an order removing him
from office be denied. Judge Cornett’s appeal
to the United States Court of Appeals is still
pending. Consequently, there is no “conviction”
which could at this time form the basis for the
entry of an order removing him from office.
Id. at 568-69. Clearly, the JCC waited until after
Judge Cornett was convicted in his criminal trial
before it acted to permanently remove him from his
seat. Judge Cornett’s criminal trial took place in 1980
and he was temporarily removed with pay. But the

26a
JCC did not proceed with its hearing against Judge
Cornett until 1981, again, after his criminal trial was
over. Judge Maze should be entitled to the same
treatment.
In the same vein, in Nicholson v. Judicial Ret, &
Removal Comm’n, we noted that:
The purpose of Section 121 of our constitution
is the regulation of the conduct of those persons charged with the administration of justice.
The aim of proceedings instituted pursuant to
this section is to improve the quality of justice
administered within the Commonwealth by
examining specific complaints of judicial misconduct, determining their relation to a judge’s
fitness for office and correcting any deficiencies found by taking the least severe action
necessary to remedy the situation. The
target is not punishment of the judge.
Consequently, the action of the Commission
does not constitute a violation of the “ex post
facto” prohibitions of the federal and state
constitutions.45
The majority seems to give much weight to the
fact that Judge Maze has made “numerous voluntary
and arguably incriminating statement? in both her
self-reporting letters to the JCC and in a television
interview. But there may be some conflation of the
concepts of forgery of signatures versus completing
an order with notation for clerical distribution, and

45

562 S.W,2d 306, 308 (Ky. 1978) (emphasis added) (citing
Flemming v. Nestor, 363 U.S. 603 (1960); DeVeau v. Braisted,
363 U.S. 144 (1960); Ex parte Garland, 71 U.S. 333 (1866); and
Cummings v. Missouri, 71 U.S. 277 (1866)).

27a
Judge Maze has not admitted any bad faith in what
transpired.
Her criminal charges, which overlap the JCC charges,
are two counts of Second-Degree Forgery and one
count of Tampering with Public Records. These charges
are the result of her signing two orders for a drug
test on her ex-husband for two different hospitals.
Specifically, that on the first order she wrote “Bath Co.
Attorney” on the “Attorney for the Plaintiff” (Form
AOC-006-3, Rev. 6-88) line, which would have indicated that the Bath Co. attorney had seen the order
and agreed to its contents. On the second order, (same
vintage) she wrote “Commonwealth Att. & Bath Co.
Attorney” on the “Attorney for the Plaintiff’ signature
line. We now know that neither the Commonwealth’s
attorney nor the Bath County attorney saw or agreed
to the orders.
However, while Judge Maze fully admits to signing
these documents and making the notations in the
lower left segment of the single page form order, she
explained in her answer to the JCC’s counts that she
inadvertently completed those orders in the same way
she had completed other orders which were on the
more recent adaptations of a different AOC form order
she typically uses. Specifically, that she thought the
form she signed (AOC-006-3) was the same as the AOC
forms she had previously used (AOC-103-1) in that
the portion to be signed was a “Distribution.” The
“Distribution” portion on the AOC-103-1 form simply
tells the Circuit Clerk who the order should be mailed
to, when entered. While the “Seen by and order of
entry waived” portion of the AOC-006-3 form which
she completed is meant to signify that whoever’s signature is on that line has seen and agreed to the
contents of the order. These sections are both in the

28a
bottom left-hand corner of the forms, and Judge Maze
asserts that she “did not realize the wording on the
bottom of the [AOC-006-3] order was different.”
Second-Degree Forgery and Tampering with Public
Records are intent crimes. A person is guilty of SecondDegree Forgery when “with intent to defraud, deceive
or injure another, he falsely makes, completes or alters
a written instrument[.]”46 The Crime of Tampering
with Public Records is committed when a person:
(1) knowingly makes a false entry in or falsely alters
any public record; or (2) knowing he or she lacks the
authority to do so, intentionally destroys, mutilates,
conceals, removes, or otherwise impairs the availability of any public records; or (3) knowing he or she lacks
the authority to retain it, intentionally refuses to
deliver up a public record in his or her possession upon
proper request of a public servant lawfully entitled to
receive such record for examination or other purposes.47
It is of course not within our province to determine
the credibility of Judge Maze’s explanation. That is the
job of a fact-finder. But if the jury empaneled for her
criminal trial credits her defense she could potentially
be acquitted of her criminal charges because she asserts
she lacked the intent required to commit those crimes.
Therefore, respectfully, the great weight that the
Majority seems to place on her allegedly incriminating
statements which might make the case indefensible is
not well founded upon closer review.
I also respectfully disagree with the weight given to
the public interest in “reducing the length of additional time Judge Maze receives her full judicial salary
46

Kentucky Revised Statute (KRS) 616.030 (emphasis added).

47

KRS 519.060 (emphasis added).

29a
while incapable of performing her judicial duties.”
The interests of the public are fully protected during
this time through her temporary suspension and
with coverage of her duties by special judges. As the
Nicholson48 court noted, “The target is not the punishment of the Judge.”
Should Judge Maze be found guilty of misconduct
under the JCC proceedings, she is subject to discipline
which could potentially remove her from the office to
which she was elected. Her office would be declared
vacant and a special election would be held to fill the
remainder of her term which ends January 9, 2023.
The right to choose or pursue an occupation has
been held to be a substantial right and is protected by
the due process and equal protection clause of the
Fourteenth Amendment and subject to a rational basis
test. In Bruner v. Zawaki49, the Federal District Court
said:
Under the due process clause of the Fourteenth
Amendment, the state may not deprive a
citizen of life, liberty, or property without due
process of law. See U.S. Coast. Amend. XIV
§ 1. “The touchstone of due process is protection of the individual against arbitrary action
of the government.” Cnty. of Sacramento v.
Lewis, 523 U.S. 833, 845, 118 S.Ct. 1708, 140
L.Ed.2d 1043 (1998). The Fourteenth Amendment “prohibits the government from imposing
impermissible substantive restrictions on individual liberty,” including the liberty interest
to pursue a chosen occupation. Craigmiles v.
48

Nicholson, 562 S.W.2d at 308.

49

997 F. Supp. 2d 691, 697-98 (E.D. Ky. 2014).

30a
Giles, 110 F.Supp.2d 658, 661 (2000), citing
Washington v. Glucksberg, 521 U.S. 702, 72021, 117 S.Ct. 2258, 138 L.Ed.2d 772 (1997);
Conn v. Gabbert, 526 U.S. 286, 291-92, 119
S.Ct. 1292, 143 L.Ed.2d 399 (1999). Such a
liberty interest is subject to reasonable regulation by the state, and the “burden is on the
challenger to show that there is no rational
connection between the enactment and a legitimate government interest? Am. Express Travel
Related Servs. Co. v. Ky., 641 F.3d 685, 689
(6th Cir.201I) (internal alterations and quotation marks omitted).
Thus, the procedures of the JCC must at least meet
the rational basis test. With the public fully protected,
the JCC cannot constitutionally justify not awaiting
the outcome of the criminal proceedings. Judge Maze
has also asserted that there have been failures in the
JCC process which include the refusal for informal
conferences and the issuance of a subpoena for grand
jury transcripts without the required notice under the
applicable Supreme Court and criminal and civil rules.
Here, as in Cornett, both the JCC and the Chief
Justice protected the public interest and the integrity
of the judicial process by the temporary safeguards
i.e., temporary suspension and the appointment of
special judges to handle the judicial responsibilities.
Therefore, there is no prejudice to the JCC or the
public in staying the civil proceeding.
In weighing the individual constitutional rights of
Judge Maze against the JCC process, particularly
with her temporary suspension and the appropriate
actions of the Chief Justice in providing coverage of
her assigned cases, I cannot agree that the JCC pro-

31a
cess should outweigh Judge Maze’s Fifth Amendment
and Fourteenth Amendment rights.
And while the majority cites Lehmann v. Gibson,
482 S.W.3d 375 (Ky. 2016) as if it supports its holding,
through examination of its non-precise test,50 this
court in Lehmann actually upheld the lower court’s
deference to having the criminal prosecution case tried
first. The Lehmann. court emphasized the importance
of the criminal process and its heightened importance
in simultaneous civil and criminal proceedings:
The Commonwealth and public share a particularly weighty interest in protecting the
integrity of the criminal prosecution. The
degree to which the issues in the civil and
criminal proceedings overlap, then, is particularly important. The more overlap, “the
more likely that allowing civil discovery will
jeopardize the integrity of the criminal proceeding” as using that discovery may become
an “irresistible temptation” to gain an advantage
in the criminal proceeding.
Id. at 384 (internal footnotes omitted).
Here, the JCC can show no prejudice to its case
against Judge Maze by giving deference to the weightier
criminal prosecution at hand. No citizens are at risk of
50

We find it unnecessary to provide an exhaustive list of
factors for a trial court’s consideration, but we find these to be
strong guidance: (1) the extent to which the evidentiary material
in the civil and criminal cases overlap; (2) the status of the
criminal proceeding; (3) the interests of any parties in staying the
civil proceeding; (4) the prejudice to any parties from staying the
civil proceeding; [(5)] the interests of persons that are not parties
to the litigation; [(6)] court convenience; and [(7)] the public
interest in the pending civil and criminal actions.

32a
harm as the safeguards of temporary removal and
special judges are in place. Judge Maze has even been
banned from the courthouses except to appear in her
criminal cases. In fact, should Judge Maze be convicted, then the JCC case is greatly simplified. Yet
Judge Maze’s constitutional rights are on the line
here, in both the JCC and criminal cases. Should she
be improperly removed from office, there is no way to
adequately restore her to her position to which she has
been elected. Additionally, should the JCC remove her
permanently prior to her criminal trial, that fact could
be admitted against her in the criminal trial. At the
very least, should she testify at the JCC hearing, those
statements could be used against her in the criminal
trial. Therefore, I cannot join the majority.
Keller and Wright, JJ., join.
WRIGHT, J., DISSENTING: As the majority points
out, “[t]he rules governing this Court’s review of JCC
proceedings only allow us to review the propriety of
those proceedings upon submission of the JCC’s final
order resolving the proceedings.” (Emphasis added.)
However, since the JCC did not challenge this Court’s
procedural ability to address Judge Maze’s argument
concerning her motion for an additional informal hearing, the majority opinion addresses the merits of her
“appeal.” I dissent as this is in direct contradiction of
our rules and we lack appellate jurisdiction in this
matter.
Kentucky Supreme Court Rule (SCR) 4.290 addresses
the judicial review of decisions of the Judicial Conduct
Commission. Specifically, SCR 4.290(2) specifies that
“A notice of appeal of the Commission’s final order
shall be filed . . .” (Emphasis added.) Furthermore,
SCR 4.290(1) states that “To the extent applicable
and not inconsistent with SCR 4, the Rules of Civil

33a
Procedure (CR) applicable to other types of proceedings shall apply to the judicial review of Commission
orders by the Supreme Court.” Pursuant to CR 54.02,
“A final or appealable judgment is a final order adjudicating all the rights of all the parties in an action or
proceeding, or a judgment made final under Rule
54.02.”
As the majority admits, the order Judge Maze
requests this Court to appeal was not final. Therefore,
we should not review it as an appeal. Rather, this case
could have properly come to this Court as a writ action
pursuant to CR 76.36 which reads, in pertinent part:
“Original proceedings in an appellate court may be
prosecuted only against a judge or agency whose
decisions may be reviewed as a matter of right by that
appellate court.”
This is not a mere matter of splitting hairs; rather,
it is a jurisdictional dilemma that must be dealt with.
“Although the question is not raised by the parties or
referred to in the briefs, the appellate court should
determine for itself whether it is authorized to review
the order appealed from.” Hook v. Hook, 563 S.W.2d
716, 717 (Ky.1978). More recently, we have stated: “As
a preliminary matter, this Court’s jurisdiction to hear
this matter as a direct appeal must be addressed . . . .
Though neither party has raised or addressed the
issue, this Court must determine for itself that jurisdiction is proper.” Leonard v. Commonwealth 279 S.W.3d
151, 155 (Ky. 2009), citing Hubbard v. Hubbard, 303
Ky. 411, 412, 197 S.W.2d 923, 923 (1946) (“This question is not raised by the record, nor is it referred to in
the briefs, but jurisdiction may not be waived, and it
can not be conferred by consent of the parties. This
court must determine for itself whether it has jurisdiction.”). Here, the order in question is “plainly an

34a
interlocutory determination. . . It [is] not reviewable
by direct appeal.” Hook, 563 S.W.2d at 717.
This Court makes the rules—both SCR and CR—for
the orderly administration of justice. We should not
turn a blind eye to those rules in this case and allow
an appeal from a nonfinal order, lest we risk facing an
onslaught of such improper “appeals.” If we disregard
our rules, they become meaningless. Here, we lack
appellate jurisdiction and should not entertain this
case. For these reasons, I dissent and would dismiss
Judge Maze’s appeal as improper.
Keller and Lambert, JJ., join.
ENTERED: June 13, 2019.
/s/ [Illegible]
Chief Justice

35a
APPENDIX B
COMMONWEALTH OF KENTUCKY
JUDICIAL CONDUCT COMMISSION
————
IN RE THE MATTER OF:
BETH LEWIS MAZE, CIRCUIT COURT JUDGE
21ST JUDICIAL CIRCUIT
————
ORDER
Upon due consideration of Judge Maze's Motion to
Stay Proceedings Pending Resolution of the Criminal
Prosecution and the Response filed by Counsel for
the Commission; Judge Maze's Motion to Continue
Hearing; and, Judge Maze's Motion for Opportunity to
Appear Informally, and the Commission being fully
advised and informed, it is hereby ordered that the
Motions be and are hereby DENIED.
Date: November 19th, 2018
/s/ Stephen D. Wolnitzek
STEPHEN D. WOLNITZEK, CHAIR

36a
APPENDIX C
SUPREME COURT OF KENTUCKY
————
2018-SC-000633-RR
————
BETH LEWIS MAZE, CIRCUIT JUDGE,
Appellant,
v.
KENTUCKY JUDICIAL CONDUCT COMMISSION,
Appellee.
————
ORDER GRANTING MOTION
FOR IMMEDIATE RELIEF
After consideration of appellant Beth Maze’s motion
for Intermediate Relief pursuant to CR 76.33, and
the Kentucky Judicial Conduct Commission’s (“JCC”)
response thereto, it is hereby ORDERED:
1) Appellant’s motion is hereby GRANTED;
2) The JCC hearing scheduled for December 3, 2018
in Maze’s judicial conduct disciplinary proceeding is
STAYED pending a decision by this Court on the
merits of the above styled appeal;
3) Pursuant to SCR 4.290, appellant and the JCC
shall confer and file an abbreviated record with the
Court within 10 days of the date of this Order. Appellant’s brief shall be due 20 days from the date of the
filing of the abbreviated record with the Court. The
JCC’s brief shall be due 20 days from the date of the
filing of appellant’s brief. No reply brief shall be filed;

37a
4) After the filing of the briefs, the above-styled
appeal will stand submitted without oral argument.
ENTERED: November 30, 2018.
/s/ [Illegible]
Chief Justice

38a
APPENDIX D
COMMONWEALTH OF KENTUCKY
JUDICIAL CONDUCT COMMISSION
————
IN RE THE MATTER OF:
BETH LEWIS MAZE, CIRCUIT COURT JUDGE
21ST JUDICIAL CIRCUIT
————
NOTICE OF FORMAL PROCEEDINGS
AND CHARGES
Notice is hereby given of the initiation of formal
proceedings under Rule 4.180 of Rules of the Supreme
Court. At the times set out in this Notice, you were
Circuit Court Judge for Kentucky’s 21st Judicial Circuit
consisting of Bath, Menifee, Montgomery, and Rowan
counties. The charges are as follows:
Count I
On September 18, 2017, you received information
that your ex-husband had been arrested on several
criminal charges including possession of a controlled
substance. You immediately made several attempts to
contact the Bath County Jailer, Earl Willis, to obtain
information on his arrest. After making contact with
Mr. Willis, you contacted pretrial services in an attempt
to secure a pretrial officer from outside of your judicial
circuit to conduct your ex-husband’s pretrial interview.
You then contacted District Judge William Roberts to
discuss the matter, only to be advised that neither he
nor Judge Donald Blair would preside and that the
matter would be referred to the Chief Regional Judge
for the appointment of a special judge.

39a
You then made contact with Jailer Willis again who
informed you that he was assisting your ex-husband in
obtaining a drug test from St. Joseph Hospital in
Mount Sterling, Kentucky. Jailer Willis informed you
that the hospital would not give your ex-husband a
drug test without a court order. In response, you issued
an Order to St. Joseph Hospital to perform the drug
screen. When St. Joseph refused to perform the drug
screen, you issued a second Order to Clark County
Medical Center in a second attempt to allow your exhusband to obtain the drug screen he desired.
Your actions violate SCR 4.020(1)(b)(i) and constitute misconduct in office. Furthermore, your actions
violate SCR 4.300 and the relevant portions of the
following Canons of the Code of Judicial Conduct, as
they existed at the time of the violation:1
• Canon 1 which requires judges to maintain high
standards of conduct and uphold the integrity
and independence of the judiciary.
• Canon 2A which requires judges to respect and
comply with the law and act at all times in a
manner that promotes public confidence in the
integrity and impartiality of the judiciary.
• Canon 2D which prohibits judges from lending
the prestige of judicial office to advance the
private interests of others.
• Canon 3B(7) which prohibits judges from initiating or considering ex parte communications
with parties.
1

The Canons cited by the Commission herein were the versions
in effect at the time of the violation. The provisions within the
cited Canons are now contained in Rules 1.1, 1.2, 1.3, 2.9, and
2.11.

40a
• Canon 3E(1) which requires a judge to disqualify himself or herself in a proceeding in which
the judge’s impartiality might reasonably be
questioned.
Count II
On September 18, 2017, you issued two separate
Orders for a drug screen to St. Joseph Hospital and
Clark County Medical Center for the benefit of your exhusband. Neither of these Orders were included in the
official record or sent to the Bath County Attorney.
Your actions violate SCR 4.020(1)(b)(i) and constitute misconduct in office. Furthermore, your actions
violate SCR 4.300 and the relevant portions of the
following Canons of the Code of Judicial Conduct, as
they existed at the time of the violation:2
• Canon 1 which requires judges to maintain high
standards of conduct and uphold the integrity
and independence of the judiciary.
• Canon 2A which requires judges to respect and
comply with the law and act at all times in a
manner that promotes public confidence in the
integrity and impartiality of the judiciary.
• Canon 3E(1) which requires a judge to disqualify himself or herself in a proceeding in
which the judge’s impartiality might reasonably
be questioned.
The jurisdiction of the Judicial Conduct Commission
in this matter is under SCR 4.020(1)(b)(i) and (v), and
(1)(c) which read in pertinent part as follows:
(1) Commission shall have authority:
(b) To impose the sanctions, separately
or collectively of (1) admonition, private

41a
reprimand, public reprimand or censure;
(2) suspension without pay or removal or
retirement from judicial office, upon any
judge of the Court of Justice or lawyer while
a candidate for judicial office, who after
notice and hearing the Commission finds
guilty of any one or more of the following:
(i) Misconduct in office.
(v) Violation of the code of Judicial
Conduct, Rule 4.300.
(c) After notice and hearing, to remove a
judge whom it finds to lack the constitutional statutory qualifications for the
judgeship in question.
For your information, the Commission wishes to call
your attention to the following Supreme Court Rule:
RULE 4.180 FORMAL PROCEEDINGS
If the Commission concludes that formal
proceedings should be initiated, it shall notify
the judge. He may file an answer within 15
days after service of the notice. Upon the filing
of his answer, or the expiration of time for so
filing, the Commission shall set a time and
place for the hearing and shall give reasonable notice thereof to the judge.
Please mail your answer to: Ms. Jimmy Shaffer,
Executive Secretary, Kentucky Judicial Conduct
Commission, P.O. Box 4266, Frankfort, Kentucky
40604-4266.
May 21st, 2018.
/s/ Stephen D. Wolnitzek
STEPHEN D. WOLNIRZEK, CHAIR

42a
COMMONWEALTH OF KENTUCKY
JUDICIAL CONDUCT COMMISSION
————
IN RE THE MATTER OF:
BETH LEWIS MAZE, CIRCUIT COURT JUDGE
21ST JUDICIAL CIRCUIT
————
ANSWER
* * *
Comes Beth Lewis Maze, by counsel, and for her
Answer to the Notice of Formal Proceedings and
Charges, states as follows:
1. Judge Maze admits she contacted and received
information from Bath County Jailer, Earl Willis. Mr.
Willis was unsure whether Judge Maze’s ex-husband
was going to be arrested or issued a citation.
2. Judge Maze admits she contacted pre-trial services for the purpose of alerting pretrial services that
the local pretrial worker might have to seek outside
assistance from a worker in a different judicial circuit
to avoid a conflict.
3. Judge Maze admits she contacted Judge Roberts
to alert him what was going on about a potential
conflict.
4. Judge Maze called the Jailer to determine whether
her ex-husband was being arrested or cited. Mr. Willis
responded that he believed the ex-husband was being
cited.
5. Jailer Willis contacted and requested Judge Maze
to issue an order for St. Joseph Hospital to perform a

43a
drug test on her ex-husband. Judge Maze initially
refused.
6. Jailer Willis advised Judge Maze that St. Joseph
Hospital had refused to perform the test.
7. Jailer Willis then proceeded to take the exhusband to Clark Regional Medical Center at the
request of the ex-husband.
8. While in route to the Clark County Jail, Jailer
Willis drove by both hospitals.
9. Jailer Willis then called Judge Maze and advised
her that he would need another order to have a drug
test performed,
10. Judge Maze issued a second order which Jailer
Willis told Judge Maze was thrown in the trash by
Clark Regional Medical Center, as the hospital advised
Jail Willis that a doctor’s order was needed, not a court
order.
11. Judge Maze states that she never intended to
bestow any benefit upon her ex-husband by ordering
these drug tests.
12. Judge Maze believes any person under similar
circumstance as her ex-husband has a right to have a
drug test performed, regardless of what the test results
might produce, in order to preserve evidence because
evidence can be dissipated if not preserved timely.
13. Judge Maze believed that the exigent circumstances presented to her qualifies as an exception to
the Canons she is charged with violating, specifically
Rule 2.11, comment 3.
[3] The rule of necessity may override the
rule of disqualification. For example, a judge
might be required to participate in judicial

44a
review of a judicial salary statute, or might be
the only judge available in a matter requiring
immediate judicial action, such as a hearing
on probable cause or a temporary restraining
order. In matters that require immediate
action, the judge must disclose on the record
the basis for possible disqualification and make
reasonable efforts to transfer the matter to
another judge as soon as practicable,
14. Judge Maze’s purpose as Chief Judge for the
21st. Judicial Circuit in contacting pretrial and Judge
Roberts was to minimize the burden on other court
personnel by alerting them to the conflict to avoid late
hour inconvenience.
15. Judge Maze never requested that Judge Roberts,
Pretrial, or the Jailer take any action on behalf of her
ex-husband,
Respectfully,
/s/ Thomas E. Clay
THOMAS E. CLAY
CLAY DANIEL WINNER, LLC
917 Lily Creek Road
Louisville, KY 40243
(502) 561-2005
tclay@tclaylaw.com

45a
APPENDIX E
COMMONWEALTH OF KENTUCKY
JUDICIAL CONDUCT COMMISSION
————
IN RE THE MATTER OF:
BETH LEWIS MAZE, CIRCUIT COURT JUDGE 21ST
JUDICIAL CIRCUIT
————
AMENDED NOTICE OF FORMAL
PROCEEDINGS AND CHARGES
Notice is hereby given of the initiation of formal
proceedings under Rule 4.180 of Rules of the Supreme
Court. At the times set out in this Notice, you were
Circuit Court Judge for Kentucky’s 21st Judicial Circuit
consisting of Bath, Menifee, Montgomery, and Rowan
counties. The charges are as follows:
Counts I and II in the May 21, 2018 Notice of Formal
Proceedings and Charges are incorporated by reference and reaffirmed as if fully set forth herein.
Count III
On September 18, 2017, you issued two separate
Orders for a drug screen to St. Joseph Hospital and
Clark County Medical Center, respectively. On the
first Order, you wrote “Bath Co. Attorney” on the
“Attorney for the Plaintiff” signature line, indicating
that the Bath County Attorney had seen and agreed to
the Order and its contents. On the second Order, you
wrote “Commonwealth Att. & Bath Co. Attorney” on
the “Attorney for the Plaintiff’ signature line, indicating that both attorneys had seen and agreed to the
Order and its contents. You additionally signed Michael

46a
Campbell’s name on the “Attorney for Defendant”
signature line.
Both the Commonwealth and County Attorneys have
denied ever seeing or agreeing to the above-referenced
Orders and there is no indication that you had authorization to sign either their names or that of Michael
Campbell to the September 18, 2017 Orders.
Your actions violate SCR 4.020(1)(b)(1) and constitute misconduct in office. Furthermore, your actions
violate SCR 4.300 and the relevant portions of the
following Canons of the Code of judicial Conduct, as
they existed at the time of the violation:1
• Canon 1 which requires judges to maintain high
standards of conduct and uphold the integrity
and independence of the judiciary.
• Canon 2A which requires judges to respect and
comply with the law and act at all times in a
manner that promotes public confidence in the
integrity and impartiality of the judiciary.
• Canon 3B(2) which requires judges to be
faithful to the law and maintain professional
competence in it.
Count IV
Throughout the preliminary investigation of this
matter, up to and including your most recent correspondence with the Commission, you failed to disclose
your actions as described in Count Ill to the Commission.
Your actions violate SCR 4.020(1)(b)(1) and constitute misconduct in office. Furthermore, your actions
1

The Canons herein were the versions in effect at the time of
the violation. The provisions within the cited Canons are now
contained in Rules 1.1, 1.2, and 2.5.

47a
violate SCR 4.300 and the relevant portions of the
following Canons of the Code of judicial Conduct, as
they existed at the time of the violations:2
• Rule 2.16 which requires judges to cooperate
with the Commission, which includes acting
candidly and honestly.
The jurisdiction of the judicial Conduct Commission
in this matter is under SCR 4.020(1)(h)(i) and (v), and
(1)(c) which read in pertinent part as follows:
(1) Commission shall have authority:
(b) To impose the sanctions, separately
or collectively of (1) admonition, private
reprimand, public reprimand or censure;
(2) suspension without pay or removal or
retirement from judicial office, upon any
judge of the Court of Justice or lawyer while
a candidate for judicial office, who after
notice and hearing the Commission finds
guilty of any one or more of the following;
(i) Misconduct in office.
(v) Violation of the code of Judicial
Conduct, Rule 4.300.
(c) After notice and hearing, to remove a
judge whom it finds to lack the constitutional statutory qualifications for the
judgeship in question.
For your information, the Commission wishes to call
your attention to the following Supreme Court Rule:

2

The Rules herein were the versions in effect at the time of the
violation, having become effective on January 1, 2010.

48a
RULE 4.180 FORMAL PROCEEDINGS
If the Commission concludes that formal
proceedings should be initiated, it shall notify
the judge. He may file an answer within 15
days after service of the notice. Upon the
tiling of his answer, or the expiration of time
for so filing, the Commission shall set a time
and place for the hearing and shall give
reasonable notice thereof to the judge.
Please mail your answer to: Ms. Jimmy Shaffer,
Executive Secretary, Kentucky Judicial Conduct
Commission, P.O. Box 4266, Frankfort, Kentucky
40604-4266.
September 10th, 2018
/s/ Stephen D.Wolnitzek
STEPHEN D. WOLNITZEK, CHAIR

49a
COMMONWEALTH OF KENTUCKY
JUDICIAL CONDUCT COMMISSION
————
IN RE THE MATTER OF:
BETH LEWIS MAZE, CIRCUIT COURT JUDGE
21ST JUDICIAL CIRCUIT
————
ANSWER
* * *
Comes Judge Beth Lewis Maze and for her answer
to Charges III and IV and states as follows:
1. Judge Maze signed her name on the orders referenced in Counts I and II.
2. Judge Maze inadvertently completed these two
orders in the same manner she had completed other
orders which were on a different AOC form Order. (See
Ex, 1 attached hereto.)
3. Judge Maze did not complete either order with
any intent to deceive or mislead anyone.
4. Judge Maze was not aware of the issue charged
in Counts III and IV until she saw the report on WLEX
television at 11:00 p.m. on August 6, 2018.
5. The two AOC forms differ on the information
contained in the lower left corner, AOC Form 103-1
(Rev. 8-97) contains “Distribution:” The purpose of
distribution is to tell the Circuit Clerk who to mail the
orders to if entered. AOC Form 006-3 (Rev, 6-88) states
“Seen by and order of entry waiver.” (Ex, 2 and 3)
6. Judge Maze took the old orders to her residence
when she was cleaning out the circuit judge’s office in

50a
Rowan County in June, 2011, in preparation of the
move to the new judicial center and did not realize the
wording on the bottom of the older order was different.
RESPECTFULLY SUBMITTED THIS 24th DAY OF
SEPTEMBER, 2018,
/s/ Thomas E. Clay
THOMAS E. CLAY, P.S.C.
CLAY DANIEL WINNER, LLC
917 Lily Creek Road
Louisville, KY 40243
(502) 561-2005
tclay@tclaylaw.com
* Please note new mailing address*

51a
EXHIBIT 1
COMMONWEALTH OF KENTUCKY
TWENTY-FIRST JUDICIAL

COURT
County

Case No.
PLAINTIFF
vs.
DEFENDANT(S)
ORDER
This matter coming on to be heard

and the Court being advised, IT IS HEREBY
ORDERED AND ADJUDGED, AS FOLLOWS, TOWIT:

this

day of

, 19
Judge

Distribution:
Attorney for Plaintiff
Attorney for Defendant(s)

.

52a
EXHIBIT 3
COMMONWEALTH OF KENTUCKY
Court of Justice
————
Case No.
Court District
County Bath
————
Commonwealth of Ky
Plaintiff,
vs.
Donald Maze
Defendant(s).
————
ORDER
This matter coming on to be heard by the Bath Circuit
Court
and the Court being advised, IT IS HEREBY
ORDERED AND ADJUDGED, AS FOLLOWS, TOWIT:
A drug test shall be conducted by the hospital at St.
Joseph in Mt. Sterling Kentucky.
This 18 day of September, 2017.
/s/ Beth Lewis Maze
Judge
Seen by and order of entry waived:
Commonwealth Att. & Bath Co. Attorney
Attorney for Plaintiff
Michael Cambell
Attorney for Defendant(s)

53a
EXHIBIT 2
COMMONWEALTH OF KENTUCKY
Court of Justice
————
Case No.
Court District
County Bath
————
Commonwealth of Ky
Plaintiff,
vs.
Donald Maze
Defendant(s).
————
ORDER
This matter coming on to be heard

and the Court being advised, IT IS HEREBY
ORDERED AND ADJUDGED, AS FOLLOWS, TOWIT:
A drug test shall be conducted by a hospital facility.
This 18 day of Sept., 2017.
/s/ Beth Lewis Maze
Judge
Seen by and order of entry waived:
Bath Co Attorney
Attorney for Plaintiff
Attorney for Defendant(s)

54a
APPENDIX F
COMMONWEALTH OF KENTUCKY
BATH CIRCUIT COURT
CRIMINAL DIVISION
————
CASE NO. 18-CR-00059
————
COMMONWEALTH OF KENTUCKY
vs.
LAURA LEWIS MAZE, AKA: BETH LEWIS MAZE,
Defendant.
————
INDICTMENT
Date of Birth: 02/28/1963
License #:
KY M95-078-455
LKA:
860 Wyoming Rd., Owingsville, KY 40360
Height:
Weight:
Hair:
Eyes:
Race:
W
Sex:
F
District Court File Number:
THE GRAND JURY OF BATH COUNTY CHARGES
that on or about September 18, 2018, in Bath County,
Kentucky, the above-named defendant, while acting
alone or in complicity with another, unlawfully committed the offenses of
COUNT I: FORGERY SECOND DEGREE, in violation of KRS 516.030, a Class D Felony, violation code
25212, by falsely making, completing, or altering, a

55a
public record or instrument filed or required or authorized by law to be filed in or with a public office or public
employee; or a written instrument officially issued or
created by a public office, public employee or governmental agency;
COUNT II: FORGERY SECOND DEGREE, in violation of KRS 516.030, a Class D Felony, violation code
25212, by falsely making, completing, or altering, a
public record or instrument filed or required or authorized by law to be filed in or with a public office or public
employee; or a written instrument officially issued or
created by a public office, public employee or governmental agency;
COUNT III: TAMPERING WITH PUBLIC RECORDS,
in violation of KRS 519.060; a Class D Felony, violation code 01012, by knowingly making a false entry
in or falsely altering a public record; or knowingly
lacking the authority to do so, intentionally destroys,
mutilates, conceals, removes, or otherwise impairs the
availability of any public records;
ALL AGAINST THE PEACE AND DIGNITY OF THE
COMMONWEALTH OF KENTUCKY.
A TRUE BILL.
/s/ [Illegible]
FOREPERSON
All other charges, if any, bound over with this case
and not indicted herein are a No True Bill.
Presented by the foreperson, in the preset e of the
Grand Jury, to the Court and filed in open Court by
me this, the 1 day of November, 2018.
CIRCUIT COURT CLERK
BY: [Illegible]

56a
GRAND JURY WITNESS: Det. Chad Bowling,
KSP DESI East
Earl Willis,
Bath County Jailer
Hon. Michael Campbell

57a
APPENDIX G
SUPREME COURT OF KENTUCKY
————
2018-SC-000633-RR
————
BETH LEWIS MAZE. CIRCUIT JUDGE,
Appellant,
v.
KENTUCKY JUDICIAL CONDUCT COMMISSION,
Appellee.
————
ORDER GRANTING STAY PENDING REVIEW BY
THE SUPREME COURT OF THE UNITED STATES
On motion of the appellant, Beth Lewis Maze.
pursuant to CR 76 44(b), a stay of execution and
enforcement of this Court’s Opinion and Order entered
June 13, 2019. which became final on June 25, 2019,
is granted for a period of ninety (90) days to and
including September 23, 2019. in order that Beth
Lewis Maze may make application to the Supreme
Court of the United States for a Writ of Certiorari.
Additional stays should be obtained from the United
States Supreme Court.
Further action before the Judicial Conduct Commission in Maze’s judicial conduct disciplinary proceeding
is similarly stayed pending the filing of a Petition for
Writ of Certiorari with the Supreme Court of the
United States
ENTERED: August 30th, 2019
/s/ Michelle M. Keller
JUSTICE MICHELLE M. KELLER
/s/ Debra Hembree Lambert
JUSTICE DEBRA HEMBREE LAMBERT

